               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




                Political and Election
                      Mail Sales

                       Audit Report




                                              June 19, 2013

Report Number MS-AR-13-008
                                                                           June 19, 2013

                                                      Political and Election Mail Sales

                                                         Report Number MS-AR-13-008




BACKGROUND:
The U.S. Postal Service plays a vital         nonballot election mail, such as
role in the American democratic process       absentee request forms, may provide
by ensuring that voters receive political     opportunities for increased sales of
campaign materials and official election      about $1.2 million and revenue in the
mail, such as absentee ballots and            next general election by addressing
registration information in a timely          citizen groups that are eligible to vote
manner. Given the Postal Service’s            but not yet registered.
financial condition and its limited
influence over states’ use of the vote-by-    In addition, the Postal Service could
mail process, it directs its efforts toward   further explore providing Internet voting
increasing political campaign mail            to enhance its ability to serve the public
revenue.                                      and moving into the digital
                                              communication market. The
To increase the sale of political             Postal Service is working on
campaign mail, the Postal Service             requirements for a platform to facilitate
implemented a specialized sales team          digital authentication. This may provide
during the 2012 general election cycle.       an opportunity for the Postal Service to
The Postal Service generated                  expand its digital offerings and set the
$508 million of political mail revenue        stage for Internet voting, which could
during the 2012 general election. This        better position the Postal Service’s
was an increase of 123 percent over the       relevance and brand in the future and
2008 general election, and a 50 percent       may impact future revenue.
increase over the 2010 general election.
                                              WHAT THE OIG RECOMMENDED:
Our objective was to evaluate                 We recommended the Postal Service
opportunities for the Postal Service to       develop a strategy to increase the sale
enhance and increase political and            of nonballot election mail products to
election mail revenue.                        citizen groups who are eligible to vote
                                              but not registered. We also
WHAT THE OIG FOUND:                           recommended the Postal Service
Additional opportunities exist for the        continue to explore secure digital
Postal Service to increase political mail     credentialing and its potential for
revenue. The Postal Service has limited       Internet voting.
ability to influence state and local
election officials in adopting a 100-         Link to review the entire report
percent vote-by-mail process. However,
June 19, 2013

MEMORANDUM FOR:             RANDY S. MISKANIC
                            VICE PRESIDENT, SECURE DIGITAL SOLUTIONS

                            GARY C. REBLIN
                            VICE PRESIDENT, NEW PRODUCTS AND INNOVATION

                            WILLIAM C. RUCKER III
                            VICE PRESIDENT, SALES




FROM:                       Darrell E. Benjamin, Jr.
                            Deputy Assistant Inspector General
                             for Revenue and Performance

SUBJECT:                    Political and Election Mail Sales
                            (Report Number MS-AR-13-008)

This report presents the results of our audit of Political and Election Mail Sales (Project
Number 12RG035MS000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Janet M. Sorensen, director,
Sales and Marketing, or me at 703-248-2100.

Attachment

cc: Nagisa M. Manabe
    Corporate Audit and Response Management
Political and Election Mail Sales                                                                                  MS-AR-13-008




                                               TABLE OF CONTENTS


Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Nonballot Election Mail .................................................................................................... 3

Internet Voting Opportunities ........................................................................................... 4

Recommendations .......................................................................................................... 6

Management’s Comments .............................................................................................. 6

Evaluation of Management’s Comments ......................................................................... 6

Appendix A: Additional Information ................................................................................. 7

   Background ................................................................................................................. 7

   Objective, Scope, and Methodology .......................................................................... 10

   Prior Audit Coverage ................................................................................................. 10

Appendix B: Monetary Impact ....................................................................................... 12

Appendix C: Management's Comments ........................................................................ 13
Political and Election Mail Sales                                                                        MS-AR-13-008



Introduction

This report presents the results of our audit of Political and Election Mail Sales
(Project Number 12RG035MS000). Our objective was to evaluate opportunities for the
U.S. Postal Service to enhance and increase political and election mail revenue. This
self-initiated audit addresses strategic risk. See Appendix A for additional information
about this audit.

The Postal Service plays a vital role in the American democratic process by ensuring
that it delivers political campaign material mailed by registered political candidates1 and
political action committees (PACs)2 to American voters in a timely manner. In the 2008
general election,3 the Postal Service generated about $227.5 million in political mail
revenue. The growth of PACs, Super-PACs,4 and other organizations engaging in issue
advocacy or voter mobilization has also led to increased mailings from these sources.

Election mail includes all mailings from an election official, such as voter registration
cards, absentee applications,5 polling place notifications, sample ballot materials, and
vote-by-mail ballots. Citizens of Oregon and Washington are required to vote by mail.
Twenty-seven states plus the District of Columbia allow “no-excuse” absentee voting6
by mail and another 21 states allow excuse-only absentee voting, requiring voters to
explain why they will be out of the jurisdiction on Election Day. Election authorities
mailed about $23.4 million in election-related materials during the 2008 general election.

The Postal Service took steps to maximize revenue from the sale of political campaign
mail during the general election of 2012. The success of the political mail sales program
can be attributed to public interest in ballot referenda7 and political races, as well as
several Postal Service innovations, including:

   Promoting the use of the Every Door Direct Mail (EDDM)8 product to effectively
    reach potential voters and promote ongoing communication throughout the
    campaign cycle.



1
  An individual or organization recognized as such by the appropriate governmental election control authority.
2
  A combination of two or more individuals, including any political party governing body, whether state or local,
making expenditures to support or oppose any candidate for public office or measure but does not include a voter
registration program.
3
  A regular scheduled election in which both the president, and at least part of the national legislature, are elected at
the same time. Alternative to general elections are special, local, primary or by-elections.
4
  Super-PACs are distinguished from PACs in that there are no limitations on political contributions.
5
  Free absentee balloting materials are sent to members of the Armed Forces in active service and their spouses and
dependents.
6
  In "no-excuse" absentee voting jurisdictions, any registered voter can request an absentee ballot with no
requirement that the voter give a reason for his/her desire to vote absentee.
7
  Some state and local issues attracted high voter participation and turnout, such as same sex marriage, health care,
education, and the marijuana legalization amendment.
8
  EDDM, launched in 2011, is an efficient and affordable way for businesses to target specific areas in their local
market without requiring names and addresses on the mailpieces.
                                                            1
Political and Election Mail Sales                                                                     MS-AR-13-008




   Sale of quick response codes9 to increase the value of mailpieces.

   Improved internal tracking of political mail to increase the visibility of this mail within
    the mailstream.

   Launch of a political mail sales team with specialized skills and knowledge.

The projected sales revenue of political mail in 2012 was $285.3 million. However, due
to the highly contested nature of some state and local referendums, as well as the high
profile of some candidates on the ballots, the Postal Service sold $508 million of political
mail during the 2012 general election. This was a revenue increase of 123 percent from
the 2008 general election and a 50 percent revenue increase from the 2010 general
election.

The specialized political mail sales team was assembled to focus on pursuing
complicated and sensitive leads. During the final 9 weeks leading up to Election Day,
this team generated about $86 million of the $508 million in total political mail revenue
for the 2012 election (or 17 percent). After the 2012 election, the Postal Service
continued to develop its strategic approach for the sale of political mail in the future,
which includes:

   Early engagement with political mail decisionmakers to strengthen relationships and
    outreach efforts.

   Leveraging research and resources to ensure districts are active in understanding
    local election opportunities.

   Focusing on sales leads with high revenue opportunities.

   Earlier engagement of a dedicated, specialized political mail sales team to focus on
    sales leads with high revenue potential.

Conclusion

Additional opportunities exist for the Postal Service to enhance and increase political
mail revenue. The Postal Service has limited ability to influence state and local
election officials in fully adopting a vote-by-mail process. However, nonballot election
mail, such as absentee request forms, may provide opportunities for increased sales
and revenue of about $1.2 million in the next general election.

In addition, the Postal Service could further explore providing Internet voting to enhance
its ability to serve the public and its plans to move into the digital communication
market. The Postal Service is working on a platform to facilitate digital authentication.

9
  A tag or image embedded with a digital watermark that, when scanned with a mobile device, will connect to a digital
landing page.

                                                          2
Political and Election Mail Sales                                                                    MS-AR-13-008



This may provide an opportunity for the Postal Service to expand its digital offerings and
set the stage for Internet voting, which could better position the Postal Service’s
relevance and brand in the future.

Nonballot Election Mail

Opportunities exist to expand the sale of nonballot election mail from election authorities
to their constituents. Specifically, the Postal Service could increase its efforts to sell
nonballot election mail, such as registration and polling place information, to address
citizen groups that are eligible to vote but not yet registered to include voters who have
difficulty reaching polling places and voters who have cognitive or literacy issues.

Revenue associated with outbound election mail (from election officials to voters)
increased from about $23 million in the 2008 general election to $25 million in the
2012 general election (see Table 1).

                     Table 1: Estimated Election Mail Revenue 2004-2012

                                           Number of
                                           Registered             Estimated Outbound Mail
              Election Year                  Voters                       Revenue
             2004                           174,862,732                        $22,581,241
             2008                           182,578,209                        $23,350,605
             2012                           197,828,022                        $25,165,005
           Source: Postal Service New Products and Innovation, generated from George Mason
           University report.

Based on our analysis of demographic information from Pew Research and Rutgers
University, we identified citizens among the Hispanic and disabled populations10 who
are eligible to vote but who have not yet registered. Using a Postal Service estimate of
the average number of nonballot mailpieces received per voter (1.33 per election
cycle),11 we calculated the potential volume for delivery of nonballot mail to these
citizens. We then calculated the revenue opportunity by applying the respective year’s
revenue per piece rates to the calculated volumes. See Tables 2 and 3 for our analysis.




10
   Information on the Hispanic population gathered from Pew Research. Information on the disabled population
gathered from Rutgers University. We identified Hispanics, because they are the nation’s largest minority group and
comprise 11 percent of eligible voters. However, the turnout rate of eligible Hispanic voters has historically been
lower than that of other groups.
11
   According to Postal Service officials, the average number of outbound nonballot election mailpieces is 1.35 per
voter. We calculated this based on the 2010 election cycle.

                                                         3
Political and Election Mail Sales                                                                      MS-AR-13-008




     Table 2: Revenue Opportunity for the Number of Eligible Unregistered Hispanic
               Voters in the 2012 General Election (in Millions Except Revenue)

                                 Number of             Estimated Added                Estimated Revenue
                 Number             Voters              Mail Volume by                  Opportunity of
                    of           Eligible and            Delivering to                   Delivering to
 Election        Eligible             Not               Nonregistered                   Nonregistered
   Year          Voters          Registered                 Voters                         Voters12
 2000                13.2                   5.7                        7.6                        $714,358
 2004                16.1                   6.8                        9.0                        $852,216
 2008                19.5                   7.9                      10.5                         $990,075
 2012                23.7                   9.9                      13.2                       $1,246,808
Source: Pew Research, A Record 24 Million Latinos Are Eligible to Vote, October 1, 2012.

     Table 3: Revenue Opportunity for the Number of Eligible Unregistered Disabled
               Voters in the 2012 General Election (in Millions Except Revenue)

                                Number of              Estimated Added
                Number             Voters               Mail Volume by     Estimated Revenue
                   of           Eligible and             Delivering to       Opportunity of
 Election       Eligible             Not                Nonregistered         Delivering to
   Year         Voters          Registered                  Voters        Nonregistered Voters16
 2008              25.65                  8.18                      10.87             $1,043,174
 201013            25.70                  9.23                      12.28             $1,157,108
Source: Rutgers University, Fact Sheet: Disability and Voter Turnout in the 2008 Elections, Fact Sheet: Disability and
Voter Turnout in the 2010 Elections.

We estimate that if the Postal Service had increased its efforts to sell nonballot election
mailings in the 2012 general election, it could have earned additional revenue of about
$1.2 million. In addition, increasing these efforts during the 2014 election could result in
about $1.2 million additional revenue based on the 2010 and 2012 estimates.14 See
Appendix B for monetary impact.

Internet Voting Opportunities

The Postal Service could further explore providing Internet voting to enhance its ability
to serve the public and its plans to move into the digital communication market. In late
2012, the Postal Service was designated by a group created by the president to run a
1-year pilot program for the Federal Cloud Credential Exchange (FCCX).15 The FCCX
program would relieve government agencies from the burden of managing user names
12
   We calculated revenue by multiplying the estimated mail volume by revenue per piece acquired from Postal
Service management, which ranged from 94 cents to 96 cents, depending on election year.
13
   We used 2010 by-election voting population figures as a conservative estimate of 2012 general election voting
population in our calculations of monetary impact.
14
   We used the most recent available data: 2010 for disabled Americans and 2012 for Hispanic Americans.
15
   USPS to Pilot Cloud-Based Federal ID Credential Hub (GCN, January 28, 2013).

                                                          4
Political and Election Mail Sales                                                                      MS-AR-13-008



and passwords used to authenticate citizens who receive services from these agencies.
This program may allow for broader government agency acceptance of third-party
credentials and provide an opportunity for the Postal Service to position itself in the
future to expand digital offerings and set the stage for Internet voting.

Although the FCCX program is in its infancy, its successful implementation, along with
the Postal Service’s reputation as one of the most trusted agencies, could provide the
Postal Service an opportunity to design and offer an Internet voting system to the public.
Internet voting systems have already experienced success — cyber-voting was
implemented in New Jersey during the Hurricane Sandy recovery efforts and is used
exclusively in several nations.16

Internet voting has several advantages over the current model:

    Increased voter turnout — Internet voting, because of the convenience and ease
     of casting a vote from any computer, could increase voter turnout. This could be
     especially true for younger voters, who are comfortable with the digital
     environment, Americans who are abroad or unable to travel to a polling station
     (typical absentee voters), and any citizen who has stood in line to vote. The use of
     Internet voting may also engage disenfranchised voters from other sectors of the
     population.

    Cost reductions — Currently, hundreds of voting booths have to be set up and
     thousands of people have to be hired to ensure that elections must run smoothly.
     One of the biggest expenses in an election, however, is paper forms. Current voting
     processes use paper forms in a variety of ways, ranging from voter registration
     cards, voter information, ballots, and envelopes for mail-in ballots. Some of these
     costs, absorbed by election authorities, may be alleviated.

    Increased result accuracy — A secure and well-designed Internet voting system
     has the potential not only to reduce the percentage of uncounted votes but to total
     votes accurately and almost instantly. An electronic system will also facilitate the
     counting process because it can be automatically updated when a vote is entered.

If the Postal Service successfully establishes a secure digital credentialing platform, it
may find itself in a unique position with the voting public and election authorities
because of its experience and reputation. Initial identification and verification may have
to be done by citizens in person, and post offices might provide the location for this
step. Kiosks with computers for voting (as well as other government services) could be
placed in Postal Service facilities, as a means of transitioning the public to this method
of voting. The use of electronic voting kiosks will increase foot traffic through Postal
Service facilities, as well as allow voting access to citizens without home computers.
Although it is uncertain how additional revenue might be generated from this service,


16
   Estonia has allowed Internet voting for all of its citizens since 2007. Canada, Sweden, Latvia, and Switzerland have
all experimented with Internet voting.

                                                          5
Political and Election Mail Sales                                               MS-AR-13-008



this opportunity may afford the Postal Service an avenue to remain relevant in the future
of service to U.S. citizens and its mailing customers.

Recommendations

We recommend the vice president, New Products and Innovation, coordinate with the
vice president, Sales, to:

1. Develop a strategy to increase the sale of nonballot election mail products to citizen
   groups that are eligible to vote but not registered.

We recommend the vice president, Secure Digital Solutions:

2. Continue to explore secure digital credentialing and its potential for Internet voting.

Management’s Comments

Management agreed with our findings and recommendations. In subsequent
correspondence, management agreed with the monetary impact. Regarding
recommendation 1, management stated that by May 2014, they will work to develop a
strategy to increase the sale of nonballot election mail products to citizen groups eligible
to vote but not registered.

Regarding recommendation 2, management stated they will continue to explore the
possibility for Internet voting within the secure digital credentialing program. However,
under current legislative authority, state and local governments are prohibited from
secure digital credentialing. Further action specific to this recommendation requires
legislative change. Management also noted a correction to our source in Figure 1 of the
report. See Appendix C for management’s comments, in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and corrective actions should resolve
the issues identified in the report. Regarding recommendation 2, we recognize the
legislative changes necessary for states to participate in digital credentialing and agree
with the Postal Service’s actions to continue to explore Internet voting with the current
secure digital credentialing program. We also updated our source information for
Figure 1.




                                             6
Political and Election Mail Sales                                          MS-AR-13-008




                                Appendix A: Additional Information

Background

Political campaign mail and election mail are high profile and time-sensitive. The
Postal Service assumes some risk in providing these products and has taken action to
assure it timely handles, processes, and delivers both political and election mail by
developing:

   Written guidelines for political and election mailers.

   A publicity kit for Postal Service employees who are in
    contact with political and election mailers and the voting
    public.

   Employee training on handling political and election
    mail.

   Election mail pages on the Postal Service external
    website USPS.COM for use by mailers.

   Container tags to mark these items when they are
    entered into the mailstream (see examples at right and
    below; size has been reduced). The tags provide greater
    visibility of political and election mail during Postal
    Service handling.




                                                7
Political and Election Mail Sales                                                           MS-AR-13-008




Political Campaign Mail

Political mail is one of many marketing strategies available to political committees and
candidates. In the 2012 general election, the Postal Service expected to sell 3 percent
of total political advertising spending across all media types (see Figure 1). However, as
a result of increased spending and focus on mail during the weeks preceding Election
Day, market share increased to 8 percent. This resulted in an increase in political mail
revenue of $222 million more than the initial projection of $285.3 million.

 Figure 1: 2012 Election Projected Political Advertisement Spending ($9.8 Billion)




                                                                      * Includes cinema.
                                                                      ** Includes postage and handling only.



Source: Borrell Associates Inc.: 2012.

Official Election Mail

Election mail consists of ballot and nonballot mail that is sent between election
authorities and voting public.

Ballot Mail refers exclusively to ballots sent from the election officials, such as vote-by-
mail ballots and absentee ballots. The election authority sends an official ballot to the
voter, who votes and returns the ballot, also by mail. Citizens’ eligibility to vote by mail is
determined by their state of residency. Although more states are beginning to accept
the broader use of voting by mail, the Postal Service has no influence over state and
local election authorities’ use of this method.

Nonballot Mail also originates from the election authority and includes mailings such as
voter registration cards, absentee applications, polling place notifications, and sample
ballot materials. Because the Postal Service cannot affect the number of states
adopting vote-by-mail for their citizens, opportunity for increased revenue for the Postal

                                               8
Political and Election Mail Sales                                                                       MS-AR-13-008



Service lies with the remaining nonballot election mail items, which are posted and paid
for by the election authority.

Internet Voting

Today, many secure consumer services are available via the Internet, including:

     Electronic bill paying.
     Online banking.
     Online merchants selling products and services.
     Airline travel reservations.
     Applying for Social Security benefits.
     Secure online transmission of information.

In the 2012 general election, about 39 percent of voting was done using electronic
means, an increase of 9.5 percent since the 2004 election.17 Additional
semiautomated techniques, such as paper ballot with optical scan18 and mechanical
lever machine voting, are widely accepted (see Table 4).

                 Table 4: Usage of Voting Systems by Percentage of Voters

                Voting System                                           Election Year
                                                        1996       2000    2004    200819                2012
    Electronic voting machine20                           7%      12.5%        29.5%                -       39%
    Hand-counted paper ballot                             2%        1.5%           1%               -        4%
    Paper ballot with optical scan                      24%       29.5%           35%               -       56%
    Punch card                                          37%          31%          13%               -    0.02%
    Mechanical lever machine                            22%          17%          14%               -        0%

    Mixed systems21                                       8%        8.5%         7.5%               -            -
Source: “Voting Machines,” ProCon.

Because Internet access is available to 92 percent of the U.S. voting population, an
opportunity exists for Internet voting to play a major role in U.S. elections. Several
countries, such as Canada, Sweden, Latvia, and Switzerland have successfully used
Internet voting, and Estonia has made Internet voting an option for its citizens since

17
   Obtained from Voting Systems and Use: 1980–2012 by considering the percentage of votes cast by electronic
voting machine.
18
   Paper ballot with optical scan is a computerized form of electronic voting similar to scantron. Voters mark a paper
ballot with a dark pen, pencil, or marking device, and then feed the ballot through a scanner to tabulate the vote.
19
   Comparable numbers for 2008 were not available. A dash indicates no information was available.
20
   Digital recording electronic systems use one of three basic interfaces (buttons, touch screens, or dials) to record
votes into the computer's memory.
21
   Mixed systems indicate a jurisdiction used more than one voting system. Because votes are anonymous, we could
not determine the percentage of voters for each type of machine. We could not find 'mixed systems' data for 2012.

                                                          9
Political and Election Mail Sales                                               MS-AR-13-008



2007. Remote electronic voting is available to the U.S. military and family members as
well as citizens living overseas. In addition, New Jersey residents were permitted to cast
ballots via email or fax after severe flooding and unavailability of some services before
the 2012 election.

Objective, Scope, and Methodology

Our audit objective was to evaluate opportunities for the Postal Service to enhance and
increase revenue through the political and election mail programs. Our scope included
the political campaign mail sales and official election program contributions to the Postal
Service’s revenue for the 2012 general election. To accomplish our objective, we:

   Reviewed political and election mail policies, procedures, and processes.

   Interviewed Postal Service officials in the Sales, New Products and Innovation, and
    Secure Digital Solutions groups to gather information on political and election mail
    programs.

   Reviewed CustomerFirst! system data for political mail sales for the 2012 general
    election.

   Performed a correlation analysis to observe any potential relationship within the data
    such as number of leads and revenue generated and lead success rate and revenue
    generated by the political mail program.

   Identified whether additional opportunities exist to enhance the political and election
    mail sales programs with little to no cost to the Postal Service.

We conducted this performance audit from October 2012 through June 2013 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on May 13, 2013.

We did not perform a reliability assessment of any automated systems; however, we
determined the data used for this report were reliable by validating the data to source
documents.

Prior Audit Coverage

Potential Financial Effect on the U.S. Postal Service of Increased Voting by Mail (Report
Number GAO-12-72R, dated 10/20/2011). The General Accountability Office (GAO) did
not make any recommendations and only provided the report for management’s
comments. The Postal Service agreed with the finding that voting by mail has limited

                                             10
Political and Election Mail Sales                                                MS-AR-13-008



revenue potential and stated that it considers election mail a required public service
rather than a large revenue opportunity. The GAO found that voting by mail has limited
to no potential for providing the Postal Service with additional revenue substantial
enough to affect its deteriorating financial condition. The main factors for this result were
the small potential increase in volume relative to the total mail volume, the low profit
margins provided by election mail, and the lack of strong nationwide support for voting
by mail. The Postal Service noted that it will continue to work with election officials to
develop creative solutions to enhance the service offering for election mail.




                                             11
Political and Election Mail Sales                                               MS-AR-13-008



                                    Appendix B: Monetary Impact

          Recommendation                    Impact Category             Amount
                1                             Revenue Loss             $2.4 million


As shown in Table 2 of the report, we identified voting-eligible populations for two citizen
groups (Hispanic Americans and disabled Americans) and the number of eligible voters
from these groups who have registered to vote. If election authorities had increased
nonballot election mailings, we estimate the Postal Service would have earned an
additional $1.2 million in revenue (revenue lost) during the 2012 general election and
could potentially earn an additional $1.2 million in revenue for the upcoming election.
Therefore, we are claiming a total monetary impact of $2.4 million.




                                                12
Political and Election Mail Sales                                MS-AR-13-008



                             Appendix C: Management's Comments




                                            13
Political and Election Mail Sales        MS-AR-13-008




                                    14
